             GENERAL SERVICES ADMINISTRATION
               OFFICE OF INSPECTOR GENERAL




                  IMPLEMENTATION REVIEW OF
                   CORRECTIVE ACTION PLAN
                            OF THE
    AUDIT OF GSA’S FISCAL YEAR 2009 DIRECT PAY PURCHASES
              REPORT NUMBER A100137/B/F/F10004
                   DATED SEPTEMBER 30, 2010
                 ASSIGNMENT NUMBER A110190


                      September 30, 2011




 

 
              u.s. GENERAL SERVICES ADMINISTRATION
             Office of the Inspector General


Date: 	       September 30, 2011 


Reply to      Deputy Assistant Inspector General for 

Attn of:      Finance and Information Technology Audits (JA-F) 


Subject: 	   Implementation Review of Corrective Actio n Plan of the Audit of
             GSA's Fiscal Year 2009 Direct Pay Purchases Report
             Num ber A 100137/B/F/F1 0004 dated September 30 , 2010
             Assignment Number A 110190

To: 	        Al ison L. Doone
             Ch ief Financial Officer (B)


The Finance and Information Technology Audit Office (JA-F) conducted an
implementation review of the management actions taken in response to the three
recommendations included in the subject audit report. We fo und that the Office of the
Chief Financial Officer im plemented the corrective actions outlined in its action plan
dated November 15, 2010, to address these recommend ations (see Appendix A).

To acconlplish this review, we:

   • 	 Reviewed the Audit of GSA's Fiscal Year 2009 Direct Pay Purchases Report
       Number A 100137/B/F/F10004 dated September 30 , 201 0, and supporti ng aud it
       documentation.
   • 	 Reviewed the Action Plan dated November 15, 20 10, and any related
       documentation submitted in response to the ori ginal repo rt.
   • 	 Selected a ra ndom stratified sample of 16 direct pay purchase transactions from
       the third quarter of fiscal year 2011 consisting of eig ht direct pay invoices $3 ,000
       and less and eight direct pay invoices over $3,000 to dete rmine if they were
       properly supported and approved.
   • 	 Obtained documentation from the appropriate person nel that processed the
       direct pay purchase transactions.

Thank you and your staff for the courtesies extended during this review. If you have any
questions, please contact Donna Peterson-Jones or me at (202) 357-3620.




Carolyn Pres,ey-Doss
Deputy Assistant Inspector General for
Finance and Information Technology Audits (JA-F)
                                                                                           1

                          1275 First Street, NE, Washington, DC 20417
                 Implementation Review of Corrective Action Plan
               Audit of GSA’s Fiscal Year 2009 Direct Pay Purchases
                        Report Number A100137/B/F/F10004
                            Dated September 30, 2010
                          Assignment Number A110190


                              Appendix A: Action Plan

                                    ACTION PLAN

Designated Responding Official: Alexis M. Stowe
Contact Person: Norma H. Tolson
Telephone Number: 202-208-0584
Date: November 15, 2010


Audit Report                  Recommendation                Proposed Recommendation
Number/Title                  Number                        Completion Date

OIG A100137/B/F/F10004                  1                          January 31, 2011
AUDIT OF GSA’S FY 2009
DIRECT PAY PURCHASES



Recommendation
Office of the Chief Financial Officer and the Heads of Services and Staff Offices Ensure
that the Office of the Chief financial Officer’s Policy on Submission of Invoices to
the Office of Finance is consistently applied and followed Agencywide regarding
the record retention requirements


Action to be taken Step by Step    To be Sent to BEI        Sent Last Day of

Issue a memo to HSSOs and          Copy of memo on          January 2011
RAs on compliance with the         compliance.
OCFO Accounts Payable
policies for Prompt Payment Act
(PPA) and direct payment
record retention requirements.



                                                                                    A-1
Designated Responding Official: Alexis M. Stowe
Contact Person: Norma H. Tolson
Telephone Number: 202-208-0584
Date: November 15, 2010

Audit Report                  Recommendation                Proposed Recommendation
Number/Title                  Number                        Completion Date


OIG A100137/B/F/F10004                  2                    January 31, 2011
AUDIT OF GSA’S FY 2009
DIRECT PAY PURCHASES


Recommendation
Office of the Chief Financial Officer and the Heads of Services and Staff Offices Ensure
that the Prompt Payment Act is followed Agency-wide to avoid the incurrence of
late payment interest penalties.

Action to be taken Step by Step    To be Sent to BEI        Sent Last Day of

   Issue a memo to HSSOs and Copy of memo on                January 31, 2011
   RAs on compliance with the  compliance.
   OCFO Accounts Payable
   policies for Prompt Payment
   Act (PPA) and direct
   payment record retention
   requirements.




                                                                                    A-2
Designated Responding Official: Alexis M. Stowe
Contact Person: Howard Katz
Telephone Number: 202-501-3348
Date: November 15, 2010

Audit Report                   Recommendation             Proposed Recommendation
Number/Title                   Number                     Completion Date

OIG A100137/B/F/F10004             3                             April 30, 2011
AUDIT OF GSA’S FY 2009
DIRECT PAY PURCHASES



Recommendation

Office of the Chief Financial Officer Implement controls in Pegasys to prevent a
single individual from holding three Pegasys role-holder positions to authorize
direct pay purchases.

Action to be taken Step by Step    Supporting Documentation Documentation will be
                                   To be Sent to BEI        Sent Last Day of


1. Issue memo to HSSOs and         Copy of policy memo.      January 31, 2011
RAs on policy to support
segregation of duties for Direct
Pay in Pegasys.

2. Within 90 days of memo, BD      SOD Monthly Report        April 30, 2011
will develop scripts to enforce
the policy by detecting and
removing any potential Direct
Pay SOD issues on monthly
basis.




                                                                                  A-3
                                               

 

              Implementation Review of Corrective Action Plan
            Audit of GSA’s Fiscal Year 2009 Direct Pay Purchases
                     Report Number A100137/B/F/F10004
                         Dated September 30, 2010
                       Assignment Number A110190


                        Appendix B: Report Distribution*



Chief Financial Officer, Office of the Chief Financial Officer (B)

Commissioner, Federal Acquisition Service (Q)

Commissioner, Public Buildings Service (P)

Director, GAO and IG Audit Response Branch (BCBB)

Inspector General, Office of the Inspector General (J)

Deputy Inspector General, Office of the Inspector General (JD)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Assistant Inspector General for Investigations (JI)




*Audit reports distributed electronically


                                                                         B-1

                                                                      
